                 Department of Veterans Affairs
                 Office of Inspector General


                   Office of Healthcare Inspections

Report No. 13-03549-92


Community Based Outpatient Clinic 

 and Primary Care Clinic Reviews 

                at 

Oscar G. Johnson VA Medical Center 

      Iron Mountain, Michigan 





March 13, 2014

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                   CBOC and PCC Reviews at Oscar G. Johnson VA Medical Center, Iron Mountain, MI



                                            Glossary
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EKG        electrocardiogram
                       EOC        environment of care
                       FY         fiscal year
                       MM         Medication Management
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       RN         registered nurse
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                         CBOC and PCC Reviews at Oscar G. Johnson VA Medical Center, Iron Mountain, MI



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     5

  MM ..........................................................................................................................    7

  DWHP Proficiency ..................................................................................................              8


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                            9

  B. PACT Compass Metrics ....................................................................................                    11

  C. VISN Director Comments ..................................................................................                    15

  D. Facility Director Comments ...............................................................................                   16

  E. OIG Contact and Staff Acknowledgments .........................................................                              18

  F. Report Distribution .............................................................................................            19

  G. Endnotes ...........................................................................................................         20





VA OIG Office of Healthcare Inspections
                                    CBOC and PCC Reviews at Oscar G. Johnson VA Medical Center, Iron Mountain, MI



                                                           Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted site visits during the week of December 10, 2013, at the
following CBOCs, which are under the oversight of the Oscar G. Johnson VA Medical
Center and Veterans Integrated Service Network 12:

    Ironwood CBOC, Ironwood, MI

    Marquette CBOC, Marquette, MI

Review Results: We conducted four focused reviews and had no findings for the
Environment of Care, Medication Management, and Designated Women’s Health
Provider Proficiency reviews. However, we made recommendations in the following
review area:

Alcohol Use Disorder. Ensure that CBOC/PCC:

	     Staff consistently complete diagnostic assessments for patients with positive alcohol
       screens.

	     Staff document plans to monitor the alcohol use of patients who decline referrals to
       specialty care.

Comments
The VISN and Facility Directors agreed with the CBOC and PCC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 15–17, for the full text of the Directors’ comments.) We will follow up on
the planned actions until they are completed.




                                                                                                                                                 
                                                                                                                 JOHN D. DAIGH, JR., M.D. 

                                                                                                                Assistant Inspector General for 

                                                                                                                   Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                                                                             i
                        CBOC and PCC Reviews at Oscar G. Johnson VA Medical Center, Iron Mountain, MI



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted onsite inspections, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspections were only conducted at randomly selected CBOCs that had
not been previously inspected.a Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




a
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                            1
                      CBOC and PCC Reviews at Oscar G. Johnson VA Medical Center, Iron Mountain, MI


Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C scoreb and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH primary care providers designated as DWHPs as of
                               October 1, 2012, and who remained as DWHPs until
                               September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




b
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0-12.


VA OIG Office of Healthcare Inspections                                                                              2
                             CBOC and PCC Reviews at Oscar G. Johnson VA Medical Center, Iron Mountain, MI



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.1

We reviewed relevant documents and conducted physical inspections of the Ironwood and
Marquette CBOCs. The table below shows the areas reviewed for this topic. The facility
generally met requirements. We made no recommendations.

Table 2. EOC

NM                      Areas Reviewed                                      Findings
       The CBOC’s location is clearly identifiable
       from the street as a VA CBOC.
       The CBOC has interior signage available that
       clearly identifies the route to and location of
       the clinic entrance.
       The CBOC is Americans with Disabilities Act
       accessible.
       The furnishings are clean and in good repair.
       The CBOC is clean.
       The CBOC maintains a written, current
       inventory of hazardous materials and waste
       that it uses, stores, or generates.
       An alarm system and/or panic buttons are
       installed in high-risk areas (e.g., Mental Health
       clinic).
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
       The CBOC has a separate storage room for
       storing medical (infectious) waste.
       The CBOC conducts fire drills at least every
       12 months.)
       Means of egress from the building are
       unobstructed.
       Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.
       The CBOC has signs identifying the locations
       of fire extinguishers.
       Exit signs are visible from any direction.
       No expired medications were noted during the
       onsite visit.




VA OIG Office of Healthcare Inspections                                                                 3
                             CBOC and PCC Reviews at Oscar G. Johnson VA Medical Center, Iron Mountain, MI


NM              Areas Reviewed (continued)                                  Findings
       All medications are secured from
       unauthorized access.
       PII is protected on laboratory specimens
       during transport so that patient privacy is
       maintained.
       Adequate privacy is provided to patients in
       examination rooms.
       Documents containing patient-identifiable
       information are not laying around, visible, or
       unsecured.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
       Adequate privacy is provided to women
       veterans in the examination room.
       The Information Technology network
       room/server closet is locked.
       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
       EOC rounds are conducted semi-annually (at
       least twice in a 12-month period).
       The CBOC has an Automated External
       Defibrillator.
       Safety inspections are performed on the
       CBOC medical equipment in accordance with
       Joint Commission standards.
       The parent facility includes the CBOC in
       required education, training, planning, and
       participation leading up to the annual disaster
       exercise.
       The parent facility’s Emergency Management
       Committee evaluates CBOC emergency
       preparedness activities, participation in annual
       disaster exercise, and staff training/education
       relating to emergency preparedness
       requirements.




VA OIG Office of Healthcare Inspections                                                                 4
                             CBOC and PCC Reviews at Oscar G. Johnson VA Medical Center, Iron Mountain, MI


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.2

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD

NM                    Areas Reviewed                                          Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
 X     Diagnostic assessments are completed for           Staff did not complete diagnostic assessments
       patients with a positive alcohol screen.           for 18 (45 percent) of 40 patients who had
                                                          positive alcohol use screens.
       Education and counseling about drinking
       levels and adverse consequences of heavy
       drinking are provided for patients with positive
       alcohol screens and drinking levels above
       National Institute of Alcohol Abuse and
       Addiction guidelines.
       Documentation reflects the offer of further
       treatment for patients diagnosed with alcohol
       dependence.
 X     For patients with AUD who decline referral to      CBOC/PCC staff did not monitor the alcohol use
       specialty care, CBOC/PCC staff monitored           of three of five patients who declined referral to
       them and their alcohol use.                        specialty care.
       Counseling, education, and brief treatments
       for AUD are provided within 2 weeks of
       positive screening.
       CBOC/PCC RN Care Managers have
       received MI training within 12 months of
       appointment to PACT.
       CBOC/PCC RN Care Managers have
       received National Center for Health Promotion
       and Disease Prevention approved health
       coaching training (most likely TEACH for
       Success) within 12 months of appointment to
       PACT.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

1. We recommended that CBOC/PCC staff consistently complete diagnostic assessments for
patients with a positive alcohol screen.




VA OIG Office of Healthcare Inspections                                                                        5
                             CBOC and PCC Reviews at Oscar G. Johnson VA Medical Center, Iron Mountain, MI


2. We recommended that CBOC/PCC staff document a plan to monitor the alcohol use of
patients who decline referral to specialty care.




VA OIG Office of Healthcare Inspections                                                                 6
                             CBOC and PCC Reviews at Oscar G. Johnson VA Medical Center, Iron Mountain, MI


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.3

We reviewed relevant documents. We also reviewed 38 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The facility
generally met requirements. We made no recommendations.

Table 4. Fluoroquinolones

NM                     Areas Reviewed                                       Findings
       Clinicians documented the medication
       reconciliation process that included the
       fluoroquinolone.
       Written information on the patient’s prescribed
       medications was provided at the end of the
       outpatient encounter.
       Medication counseling/education for the
       fluoroquinolone was documented in the
       patients’ EHRs.
       Clinicians documented the evaluation of each
       patient’s level of understanding for the
       education provided.
       The facility complied with local policy.




VA OIG Office of Healthcare Inspections                                                                 7
                             CBOC and PCC Reviews at Oscar G. Johnson VA Medical Center, Iron Mountain, MI


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.4

We reviewed the facility self-assessment, VHA and local policies, Primary Care Management
Module data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic. The facility generally met requirements. We made no
recommendations.

Table 5. DWHP Proficiency

NM                    Areas Reviewed                                        Findings
       CBOC and PCC DWHPs maintained
       proficiency requirements.
       CBOC and PCC DWHPs were designated
       with the WH indicator in the Primary Care
       Management Module.




VA OIG Office of Healthcare Inspections                                                                 8
                                                                   CBOC and PCC Reviews at Oscar G. Johnson VA Medical Center, Iron Mountain, MI
                                                                                                                                    Appendix A


                                                                    CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.c
The table below provides information relative to each of the CBOCs.

                                                                                    Uniquesd                                  Encountersd

                                Station                   CBOC
        Location       State                Localitye                  MHg       PCh       Otheri       All       MHg        PCh      Otheri        All
                                   #                       Sizef
    Rhinelander         WI      585GB        Rural       Mid-Size       374     3,274       2,298      3,483     3,564      6,848      6,149      16,561
    Marquette           MI      585HA        Rural       Mid-Size       817     2,151        778       2,578     4,768      6,123      1,624      12,515
    Hancock             MI      585GA        Rural       Mid-Size      1,007    1,342        705       2,169     5,114      3,080      1,636      9,830
    Menominee           MI      585GC        Rural       Mid-Size       250     2,078       1,263      2,159     2,179      5,105      4,887      12,171
    Ironwood            MI      585GD        Rural        Small         159     1,253       1,041      1,311     1,851      2,663      3,465      7,979
    Sault Ste. Marie    MI      585HB        Rural        Small         191     1,146        397       1,184     1,689      3,009       830       5,528




c
  Includes all CBOCs in operation before March 31, 2013. 

d
   Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

July 1, 2012, through June 30, 2013, timeframe at the specified CBOC. 

e
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

f
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

g
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

h
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – Mental Health Primary care Team-Group; 170 – Home Based Primary Care (HBPC) Physician.

i
  All other non-Primary Care and non-MH stop codes in the primary position.


VA OIG Office of Healthcare Inspections                                                                                                                    9
                       CBOC and PCC Reviews at Oscar G. Johnson VA Medical Center, Iron Mountain, MI


                                   CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.j

                                                                                              Tele-Health
            CBOC             Specialty Care Servicesk         Ancillary Servicesl
                                                                                               Servicesm
    Rhinelander                      Cardiology                   Pharmacy                 Tele Primary Care
                                                              MOVE! Programn
                                                             Electrocardiography
    Marquette MI                     Neurology                 MOVE! Program               Tele Primary Care
                                                                Diabetes Care
                                                             Electrocardiography
    Hancock                              ---                 Electrocardiography           Tele Primary Care
                                                               MOVE! Program
    Menominee MI                         ---                    Diabetes Care              Tele Primary Care
                                                             Electrocardiography
                                                               MOVE! Program
    Ironwood                             ---                          ---                  Tele Primary Care

    Sault Ste. Marie                     ---                   MOVE! Program               Tele Primary Care




j
  Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic

Stops with a count ≥ 100 encounters during the July 1, 2012, through June 30, 2013, timeframe at the specified 

CBOC. 

k
  Specialty Care Services refer to non-Primary Care and non-Mental Health services provided by a physician. 

l
  Ancillary Services refer to non-Primary Care and non-Mental Health services that are not provided by a physician. 

m
  Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 

n
  VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 


VA OIG Office of Healthcare Inspections                                                                         10
                                                                                 CBOC and PCC Reviews at Oscar G. Johnson VA Medical Center, Iron Mountain, MI
                                                                                                                                                  Appendix B


                                                                        PACT Compass Metrics

                                                       FY 2013 Average 3rd Next Available in PC Clinics
                                   60.0
       Average Number of Days




                                   50.0

                                   40.0

                                   30.0

                                   20.0

                                   10.0

                                     0.0
                                                       Iron Mountain   Hancock       Rhinelander    Menominee       Ironwood     Marquette    Sault Ste. Marie
                                           VHA Total
                                                            (585)      (585GA)         (585GB)       (585GC)         (585GD)      (585HA)        (585HB)
                                OCT FY13     14.6          10.2          5.7             4.9            5.8           11.5          28.5            7.7
                                NOV FY13     15.2          17.7          5.3             8.3            5.9           10.9          17.5            8.5
                                DEC FY13     13.8          12.2          5.3             5.8            5.4           11.1          14.0            10.7
                                JAN FY13     14.0           9.5          5.5             14.9           6.4           13.6          15.5            1.9
                                FEB FY13     14.8          19.4          4.0             6.3            4.0           8.1           12.3            14.0
                                MAR FY13     13.3          13.0          1.7             4.8            2.8           8.7           12.6            48.5
                                APR FY13     14.4          13.3          2.3             27.6           2.8           11.2          14.7            10.0
                                MAY FY13     16.0          15.0         10.6             6.5            3.0           11.3          14.1            1.3
                                JUN FY13     14.2           6.1          8.3             2.1            3.2           9.9           28.0            10.1
                                JUL FY13     14.6          10.4          1.6             3.6            2.7           19.6          27.8            6.2
                                AUG FY13     15.7          26.6          8.1             5.7            3.5           15.4          37.9            4.5
                                SEP FY13     13.4          37.6         12.7             9.9            1.7           15.0          35.5            5.3

 
    Data Definition.5 The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
    Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the appointment
    or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the national to the
    division level.
    VA OIG Office of Healthcare Inspections                                                                                                                 11
                                                                CBOC and PCC Reviews at Oscar G. Johnson VA Medical Center, Iron Mountain, MI




 Data Definition.5 The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
 total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on the
 1st and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure.

VA OIG Office of Healthcare Inspections                                                                                                                12
                                                                                                      CBOC and PCC Reviews at Oscar G. Johnson VA Medical Center, Iron Mountain, MI


                                                                              FY 2013 Ratio of ER Encounters While on Panel to
                                                                               PC Encounters While on Panel (FEE ER Included)
                                                                26%

                                                                24%
                 Percentage of ER Encounters to PC Encounters
                                                                22%

                                                                20%

                                                                18%

                                                                16%

                                                                14%

                                                                12%

                                                                10%

                                                                8%

                                                                6%

                                                                4%

                                                                2%

                                                                0%
                                                                      OCT FY13 NOV FY13 DEC FY13   JAN FY13   FEB FY13 MAR FY13 APR FY13 MAY FY13 JUN FY13   JUL FY13   AUG FY13   SEP FY13
        VHA Total                                                      16.3%     16.3%   16.4%      16.3%      16.3%    16.3%    16.1%    16.1%     16.0%     15.9%      15.8%      15.7%
        Iron Mountain (585)                                            21.8%     21.9%   22.8%      23.1%      23.1%    23.3%    23.3%    23.4%     23.5%     23.9%      23.5%      23.7%
        Hancock (585GA)                                                9.3%      9.6%     9.2%      9.3%       9.6%     9.6%     10.3%    10.2%     10.6%     9.7%        9.3%      9.5%
        Rhinelander (585GB)                                            4.8%      4.9%     5.0%      5.1%       5.4%     5.4%      5.4%     5.4%     5.2%      5.2%        5.3%      5.2%
        Menominee (585GC)                                              5.5%      5.3%     5.3%      5.3%       5.4%     5.6%      5.8%     5.8%     5.9%      6.0%        6.2%      6.2%
        Ironwood (585GD)                                               9.8%      9.8%     9.8%      10.0%      9.7%     9.9%      9.6%     9.5%     9.3%      9.3%        9.3%      9.7%
        Marquette (585HA)                                              5.3%      5.3%     5.2%      5.3%       5.1%     5.1%      5.3%     5.1%     5.5%      5.6%        5.7%      5.9%
        Sault Ste. Marie (585HB)                                       5.0%      4.9%     5.1%      5.1%       5.0%     5.6%      6.0%     5.8%     6.3%      6.4%        6.7%      6.6%




 Data Definition.5 This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
 VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
 assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
 primary care encounters WOP with a provider other than the patient’s PCP/AP.

VA OIG Office of Healthcare Inspections                                                                                                                                                       13
                                                                 CBOC and PCC Reviews at Oscar G. Johnson VA Medical Center, Iron Mountain, MI




Data Definition.5 Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary care
patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded from
this metric.

VA OIG Office of Healthcare Inspections                                                                                                                   14
                   CBOC and PCC Reviews at Oscar G. Johnson VA Medical Center, Iron Mountain, MI
                                                                                    Appendix C
                              VISN Director Comments


               Department of
               Veterans Affairs                                 Memorandum


           Date:       February 4, 2014

          From:        Director, VA Great Lakes Health Care System (10N12)

       Subject:        CBOC and PCC Reviews of the Oscar G. Johnson VA
                       Medical Center, Iron Mountain, MI

             To:       Director, Chicago Office of Healthcare Inspections (54CH)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. I have reviewed the draft report and I concur with the Office of
          Healthcare Inspections recommendations as well as the corrective
          action plans developed by Oscar G. Johnson VA Medical Center.

       2. Thank you for the opportunity to review the findings enclosed in this
          report.




       Jeffrey A. Murawsky, M.D.




VA OIG Office of Healthcare Inspections                                                      15
                   CBOC and PCC Reviews at Oscar G. Johnson VA Medical Center, Iron Mountain, MI
                                                                                    Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs 	                               Memorandum


           Date:       February 4, 2014

          From:        Director, Oscar G. Johnson VA Medical Center (585/00)

       Subject: 	      CBOC and PCC Reviews of the Oscar G. Johnson VA
                       Medical Center, Iron Mountain, MI

             To:       Director, VA Great Lakes Health Care System (10N12)

       1. The recommendations made during the Office of Inspector General
          (OIG) Review of CBOC and Primary Care conducted
          December 10-12, 2013, have been reviewed and a plan of action for
          each recommendation is noted below. Each plan of action will be
          implemented expeditiously and thoroughly monitored to satisfactory
          completion.

       2. I would like to thank the OIG CBOC and PCC Survey Team member
          for her professionalism and consultative feedback to our employees
          during our review. This review provided us with the opportunity to
          continue improving care to our Veterans.

       3. If you have questions or require additional information, please contact
          Ms. Mary Gagala, RN Quality Manager, at 906-774-3300,
          extension 32035.




       James W. Rice




VA OIG Office of Healthcare Inspections                                                      16
                   CBOC and PCC Reviews at Oscar G. Johnson VA Medical Center, Iron Mountain, MI


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that CBOC/PCC staff consistently complete
diagnostic assessments for patients with a positive alcohol screen.

Concur

Target date for completion: August 1, 2014

Facility response: The Associate Chief of Staff for Primary Care educated the Primary
Care providers regarding the required assessment for patients with positive alcohol
screens in January 2014. This topic will also be reviewed at the February 2014 provider
meeting. Additionally, the Primary Care Nurse Manager educated nursing and clerical
staff at the December 2013 staff meeting. Medical records will be reviewed to assure
90% compliance with diagnostic assessments for patients with a positive alcohol
screen.

Recommendation 2. We recommended that CBOC/PCC staff document a plan to
monitor the alcohol use of patients who decline referral to specialty care.

Concur

Target date for completion: August 1, 2014

Facility response: The Clinical Reminder for alcohol use was changed in
December 2013 to include required fields for CBOC/PCC staff to document the alcohol
use of patients who decline referral to specialty care at Primary Care visits. Medical
records will be reviewed to assure 90% compliance.




VA OIG Office of Healthcare Inspections                                                      17
                   CBOC and PCC Reviews at Oscar G. Johnson VA Medical Center, Iron Mountain, MI
                                                                                    Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Debra Boyd-Seale, RN, PhD, Team Leader
Contributors
Other                   Judy Brown, Program Support Assistant
Contributors            Lin Clegg, PhD
                        Sheila Cooley, GNP, MSN
                        Matt Frazier, MPH
                        Wachita Haywood, RN
                        LaNora Hernandez, MSN/ED, RN
                        Zhana Johnson, CPA
                        Jeff Joppie, BS
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Laura Spottiswood, RN, MPH
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                      18
                   CBOC and PCC Reviews at Oscar G. Johnson VA Medical Center, Iron Mountain, MI
                                                                                    Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Great Lakes Health Care System (10N12)
Director, Oscar G. Johnson VA Medical Center (585/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Tammy Baldwin, Ron Johnson, Carl Levin, Debbie Stabenow
U.S. House of Representatives: Dan Benishek, Sean Duffy, Reid J. Ribble


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                      19
                        CBOC and PCC Reviews at Oscar G. Johnson VA Medical Center, Iron Mountain, MI
                                                                                         Appendix G

                                                   Endnotes 


1
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
     Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
2
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
   (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
   013_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
3
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
4
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
5
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                    20
